   IMPLEMENTATION REVIEW OF
  GSA’s NATURAL GAS PROGRAM
    PUBLIC BUILDINGS SERVICE
REPORT NUMBER A010110/P/9/R01028
    DATED SEPTEMBER 27, 2001
  ASSIGNMENT NUMBER A050049
          APRIL 7, 2005
                      Field Audit Office, Pacific Rim Region (JA-9)
                        450 Golden Gate Avenue, Room 7-5262
                             San Francisco, CA 94102-3434

Date:           April 7, 2005

Reply to
Attn of:        Audit Manager, San Francisco Field Audit Office (JA-9)

Subject:        Implementation Review of GSA’s Natural Gas Program
                Public Buildings Service
                Report Number A010110/P/9/R01028
                Dated September 27, 2001
                Assignment Number A050049

To:             F. Joseph Moravec
                Commissioner, Public Buildings Service (P)


The Office of Inspector General (OIG) has completed an implementation review of the
management actions taken on the eight recommendations in the subject audit report.
The audit report presented the results of our review of the General Services
Administration’s (GSA) natural gas program managed by the Public Buildings Service’s
(PBS) National Center for Utilities Management. The formal action plan addressed all
of the recommendations with a completion date no later than March 5, 2002.


Background

During the initial review, conducted in September 2001, we examined program
operations that were administered by PBS’ National Center for Utilities Management
(NCUM) in Vancouver, Washington. At that time, NCUM was headed by a local
Director. As a result of restructuring, NCUM is currently known as the Natural Gas
Acquisition Program (NGAP). Its director is located in Washington, D. C., and it is
organizationally within the Energy Center of Expertise’s Office of Applied Science.

In our prior report, we recommended that management controls be established in order
to improve PBS’ natural gas program in four areas (a total of eight recommendations).
Specifically, the report included recommendations to: (1a) document monthly the
agreed upon and established key pricing factors to be used for customer billing in
advance of gas delivery; (1b) require justification and advance approval for any
deviation from the pricing specified (2a) develop procedures to independently verify the




                                           1
contractors’ invoices; (2b) perform and document invoice verification for rates on a
continuing basis; (2c) review the Gross Receipts Tax paid for all facilities in the District
of Columbia to determine the full extent of any overcharges and obtain credits as
appropriate; (3a) improve the administrative fee billing and collection process;
(3b) maintain a log of information submitted to Finance, showing the dates and amounts
of the administrative fees to be billed to the contractors, as well as the dates and
amounts subsequently collected by Finance; and (4) conduct program savings
validation independently of the contractor. Management concurred with the recom-
mendations and provided a time-phased action plan delineating the specific corrective
actions that had already been taken or were planned.


Scope and Methodology

The implementation review included discussions with management personnel to
determine if management’s action plan had been implemented. We evaluated collect-
ion data provided by Finance for the period June 1999 to November 2004. The data
included the billing and collection dates for the entire period. However, the dates that
Finance received the administrative fee data from NGAP were available for only the
period, August 2003 through November 2004.



Results

We noted that appropriate action had been taken for seven1 of the eight recom-
mendations. However, we found that NGAP did not implement the corrective action for
audit recommendation 3a, which was to comply with established GSA, PBS guidelines
to improve the administrative fee billing and collection process. As a consequence, the
collection of administrative fees continued to be untimely.

NGAP continues to handle the fees it charges its customers in the same manner as
when we performed our initial audit. A key element in the process is that NGAP deals
with several contractors delivering natural gas to approximately 375 NGAP customers’
facilities. The contractors add NGAP’s fees to the customers’ monthly invoices. Upon
receiving copies of the invoices, NGAP consolidates the customers’ monthly fees for
each contractor, and then sends a notice to GSA Finance. GSA Finance then submits
an invoice to each contractor.

We noted that NGAP appears to initiate collection of the administrative fee on a
haphazard basis. The following table shows the dates that NGAP forwarded requests
to Finance to initiate collection of the fees:

1
 We consider action completed for Recommendation 4 because the NGAP no longer provided cost data
to its customers, thus rendering the recommendation to be no longer applicable.



                                               2
       Date Finance
         Received                                                   Months Fees
      Collection Data       Date Finance Billed      Amount         Were Earned
        from NGAP
       August 13, 2003         August 22, 2003        $212,491   February through April
                                                                         2003
       January 21, 2004       February 11, 2004       $ 13,556       June through
                                                                   September 2003
    February 12, 2004 and   February 19 – 21, 2004    $114,076     January through
      February 18, 2004                                            December 2003
       May 6 – 21, 2004       May 13 – 18, 2004       $374,536     May 2003 through
                                                                     February 2004
         July 16, 2004            Not Stated           $21,469      November 2003
                                                                   through May 2004
      October 5 – 7, 2004      October 6, 2004         $21,191    March 2004 through
                                                                     August 2004

The table shows that the requests vary significantly both in frequency of the request and
the amount of fees. In addition, it appears that some months are only partially billed at
any one time. For example, Finance billed in both August 2003 and in February 2004
for fees earned in April 2003. Of particular concern is that some of the requests include
fees earned over a long period. For example, the request from October 2004 included
administrative fees as far back as March 2004 and the May 2004 submission included
administrative fees as far back as May 2003; one year in arrears.

After we brought the delays to management’s attention, the NGAP Director e-mailed
NGAP associates on October 25, 2004, reminding them to bill administrative fees on a
monthly basis. In addition, management officials indicated that they would review the
process to determine possible improvements.

Within the scope of this review, we did not follow-up to determine whether or not the
NGAP Director’s reminder has improved timeliness of the administrative fee billing and
collection process. However, we feel that if significant improvement is not achieved,
NGAP’s Director needs to take more formal action.

In our opinion, a viable alternative that could improve the timeliness of the
administrative fee billing and collection process is to employ the business model used


                                               3
by FSS in its schedule contracts. Both the NGAP and the FSS schedule programs
require the contractors to collect fees from GSA’s customers on the products and
services purchased. However, FSS differs from NGAP in the way it collects fees. FSS
places the responsibility squarely on the contractors to accurately record and remit the
fees to GSA without being reminded. The contractors must report the sales and amount
of fees collected on a quarterly basis, and remittances are due 30 calendar days after
the end of the quarter. On the other hand, NGAP relies upon its staff to notify Finance of
the fees due, thus placing responsibility on GSA to bill the contractors for the amounts
owed. To adopt the FSS model, NGAP may need to modify its natural gas supply
contract clauses. However, adopting the model may assist in achieving the desired
outcome of collecting the administrative fees timely, with less NGAP and GSA Finance
involvement.


         ACTIONS TAKEN NOT IN ACCORDANCE WITH THE ACTION PLAN



Recommendation 3a.
U




“Revise [NGAP’s] policy to ensure that Finance is notified monthly to bill the contractors
for administrative fees.”



Action Plan Response
U




“1. The Energy Center of Expertise will follow the established financial procedures put
    in place by GSA, Public Buildings Service at the initiation of the program.”



Status of Action
U




This aspect of the action plan has not been implemented.


CONCLUSION
U




NGAP must establish an effective means of collecting the administrative fees in a
timelier manner. As an alternative to the haphazard process currently in place, we
propose that NGAP consider patterning the process after the business model utilized in
FSS schedule contracts.


ACTION REQUIRED
U




                                            4
The Commissioner, Public Buildings Service (P), is required to submit a revised action
plan to the Office of the Controller, Office of the Chief Financial Officer (BE) within 30
days, addressing improvements in the timeliness of collecting the administrative fees.




                                            5
